      Department of Homeland Security





        FEMA’s Management of Corrective Actions and
        Lessons Learned From National Level Exercises




OIG-12-118                                 September 2012

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov


                                        SEP 11 2012

MEMORANDUM FOR:              Timothy W. Manning
                             Deputy Administrator
                             National Preparedness Directorate
                             Federal Emergency Management Agency

FROM:                        Ann~~
                   V-c.fvi~ Assistant Inspector General for Audits

SUBJECT:                     FEMA's Management of Corrective Actions and Lessons
                             Learned From National-Level Exercises

Attached for your action is our final report, FEMA's Management of Corrective Actions
and Lessons Learned From National-Level Exercises. We incorporated the formal
comments from the Office of Policy and Program Analysis, Federal Emergency
Management Agency in the final report.

The report contains three recommendations aimed at improving the National,
Preparedness Directorate. Your office concurred with all recommendations. Based on
information provided in your response to the draft report, we consider the
recommendations resolved. Once your office has fully implemented the
recommendations, please submit a formal closeout letter to us within 30 days so that
we may close the recommendations. The memorandum should be accompanied by
evidence of completion of agreed-upon corrective actions and of the disposition of any
monetary amounts.

Consistent with our responsibility under the Inspector General Act, we are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Please call me with any questions, or your staff may contact Mark Bell, Deputy Assistant
Inspector General for Audits, at (202) 254-4100.

Attachment
                                         OFFICE OF INSPECTOR GENERAL
                                              Department of Homeland Security


   Table of Contents
   Executive Summary ............................................................................................................ 1

   Background ........................................................................................................................ 2

   Results of Review ................................................................................................................ 4

              Tracking, Managing, and Completing Corrective Actions ...................................... 5 

              Validating Corrective Actions .................................................................................. 6 

              Managing Lessons Learned ..................................................................................... 7 

              Recommendations ................................................................................................. 9 

              Management Comments and OIG Analysis ........................................................... 9 



   Appendixes
              Appendix A:          Objectives, Scope, and Methodology ............................................ 11
              Appendix B:          Management Comments to the Draft Report ............................... 12
              Appendix C:          Major Contributors to This Report ................................................ 16
              Appendix D:          Report Distribution ........................................................................ 17


   Abbreviations
              CAP                   Corrective Action Program
              DHS                   Department of Homeland Security
              EEP                   Exercise and Evaluation Program
              FEMA                  Federal Emergency Management Agency
              LLIS                  Lessons Learned Information Sharing System
              NED                   National Exercise Division
              NLE                   National-Level Exercise
              NPD                   National Preparedness Directorate
              OIG                   Office of Inspector General
              RAMP                  Remedial Action Management Program
              TOPOFF                Top Officials




www.oig.dhs.gov                                                                                                               OIG-12-118
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Executive Summary
   Every 2 years, the Federal Emergency Management Agency (FEMA) carries out a
   National-Level Exercise aimed at assessing U.S. capacity to prevent, prepare for, respond
   to, and recover from a large-scale disaster. FEMA is responsible for managing, tracking,
   and validating corrective actions stemming from this exercise, as well as other exercises
   and actual events, and widely disseminating lessons learned. Our objective was to
   determine whether FEMA is managing and tracking corrective actions and lessons
   learned from National-Level Exercises, as well as from other exercises and disasters.

   FEMA did not consistently track and manage corrective actions assigned to it resulting
   from exercises carried out in 2007 and 2009, nor did it finalize and implement guidance
   for doing so. Furthermore, fewer than 40 percent of corrective actions resulting from
   these exercises, many of which FEMA was responsible for completing, were completed.
   FEMA also did not adequately validate corrective actions to improve planning and
   disaster response. Finally, FEMA did not sufficiently disseminate information on agency-
   specific lessons learned. As a result, FEMA missed opportunities to validate its actions in
   future exercises and actual events, learn from and apply the experiences of its
   personnel, and improve its incident management operations.

   We are making three recommendations that, when implemented, should improve
   FEMA’s efforts to track, manage, and validate corrective actions, as well as better
   disseminate lessons learned. FEMA concurred with our recommendations and is taking
   steps to implement them.




www.oig.dhs.gov                                1                                       OIG-12-118
                              OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Background
   National-Level Exercises

   After the terrorist attacks of September 11, 2001, Congress passed the Homelandf
   SecurityfAct off2002f(Public Law 107-296), as amended, which formalized what is now
   known as the National-Level Exercise (NLE) program. An amendment to that act, found
   in United States Code Title 6,fthen established the requirement for a continuous
   exercise cycle, which culminates in a biennial national full-scale exercise involving
   Federal, State, and local partners. An NLE aims to assess U.S. capacity to prevent,
   prepare for, respond to, and recover from a large-scale disaster.

   The NLE 2011 full-scale exercise, held from May 16 to 19, tested the response and
   recovery efforts for a simulated 7.7 magnitude earthquake in the New Madrid Seismic
   Zone and an additional 6.0 magnitude earthquake in the Wabash Valley Seismic Zone.
   The simulated catastrophic disaster affected four FEMA regions (IV, V, VI, and VII) and
   eight States (Alabama, Arkansas, Illinois, Indiana, Kentucky, Mississippi, Missouri, and
   Tennessee) (see figure 1). More than 10,000 Federal, State, local, international,
   nongovernmental, and private sector individuals participated in the exercise at about
   135 sites. The purpose of the exercise was to prepare and coordinate a multijurisdictional
   integrated response to a catastrophic earthquake, with an emphasis on life-saving and
   life-sustaining missions in the initial 72 hours.

                  Figure 1. Map of New Madrid Seismic Zone




                  Source: FEMA. 




www.oig.dhs.gov                                2                                      OIG-12-118
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   FEMA’s Roles and Responsibilities

   FEMA coordinates the Federal Government’s role in all domestic disaster-related
   activities. In April 2007, FEMA established the National Preparedness Directorate (NPD)
   to oversee the coordination and development of strategies to prepare for both
   manmade and natural disasters. The National Preparedness Assessment Division of NPD
   manages the Remedial Action Management Program (RAMP), Corrective Action
   Program (CAP), and the Lessons Learned Information Sharing System (LLIS), and
   develops and tracks performance measures for preparedness programs. RAMP and CAP
   provide a standard method for handling corrective actions and Improvement Plans. LLIS
   is a Web-based national network of lessons learned and best practices for emergency
   response providers and officials involved in homeland security. The National Exercise
   Division (NED) of NPD provides exercise guidance and planning support to Federal-,
   State-, and local-level emergency preparedness personnel.

   NED established the National Exercise Program Base Plan to coordinate the efforts of
   other Federal, State, and local exercise programs. The base plan systematically
   evaluates exercises with a focus on developing corrective actions, which are steps that
   need to be taken to close gaps in preparedness and correct shortcomings found during
   exercises and actual events. The base plan is also aimed at rapidly identifying,
   developing, and disseminating lessons learned. It requires all Federal departments and
   agencies to actively participate in the corrective action process and maintain corrective
   action programs.

   Under the base plan, NED ensures that, following exercises, After-Action Reports,
   Improvement Plans, and corrective actions are generated in a timely manner. After-
   Action Reports summarize exercise events, analyze performance, and evaluate
   achievement of exercise objectives. Improvement Plans include corrective actions to
   enhance performance, timelines for implementing corrective actions, and identification
   of the agencies responsible for completing the corrective actions. The base plan also
   requires NED to manage the CAP system and report on the status of corrective actions
   to the National Security Staff in the White House. NED also manages the Homeland
   Security Exercise and Evaluation Program to provide common policy and program
   guidance for a national standard for exercises, as well as tools for managers to plan,
   conduct, and evaluate exercises to improve overall preparedness.

   Corrective Actions and Lessons Learned

   Corrective actions are intended to close preparedness gaps and correct shortcomings
   experienced in exercises and actual disasters. A lesson learned is a positive finding or a
   validated corrective action implemented during an event or derived from analysis that
   improves performance or increases capabilities. A lesson learned can also be a negative


www.oig.dhs.gov                                3                                       OIG-12-118
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


   finding that may need correction. Corrective actions and lessons learned can improve
   mission performance and future disaster management operations.

   FEMA first used RAMP to track internal issues, lessons learned, and best practices
   identified during actual disasters. CAP was developed to track, manage, and
   disseminate corrective actions and Improvement Plans. The agency and its Federal
   partners used CAP to address preparedness deficiencies they identified during exercises,
   policy discussions, and actual disasters. In February 2009, FEMA began integrating the
   two programs, and in July 2010, the integrated program, now known as CAP, became
   operational.1 As part of its responsibility to oversee CAP, the National Preparedness
   Assessment Division provides administrative and technical support for corrective action
   processes at other Federal departments and agencies.

   In its “hotwash” process, FEMA identifies issues and lessons learned through facilitator-
   led discussion groups of key leaders and staff. The agency then uses LLIS to disseminate
   information and lessons learned from exercises and actual events internally and to the
   public. LLIS also serves as the national repository for After-Action Reports.

   According to FEMA Exercise and Evaluation Program (EEP) Management Directive 123-
   15, issued in January 2009, all directorates, offices, and regional offices involved in
   exercises must provide senior-level leadership to the FEMA EEP Steering Committee.
   The EEP Steering Committee coordinates FEMA activities related to exercises, including
   corrective action recommendations, and manages and tracks FEMA-specific corrective
   actions.

   Results of Review
   FEMA did not adequately manage and track corrective actions assigned to it resulting
   from disaster management exercises carried out in 2007 and 2009, and fewer than
   40 percent of all these corrective actions are completed. Furthermore, FEMA did not
   validate corrective actions to ensure that they could be used to improve future mission
   performance. Finally, FEMA did not effectively use its mechanism for disseminating
   agency-specific lessons learned to personnel. These weaknesses resulted in missed
   opportunities to validate its actions and apply lessons learned to improve future
   exercises, as well as improve planning and responses to actual disasters.




   1
    In January 2011, OIG released the report FEMA’sfImplementationfoffthefRemedialfActionfManagementf
   Programf(OIG-11-32), outlining several issues with the program.


www.oig.dhs.gov                                     4                                          OIG-12-118
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Tracking, Managing, and Completing Corrective Actions 


           FEMA did not consistently track, manage, and complete the corrective actions
           assigned to it resulting from exercises carried out in 2007 and 2009. Insufficient
           oversight by the EEP Steering Committee made it more difficult to manage,
           track, and prioritize completion of corrective actions. The agency’s failure to
           complete corrective actions may also be attributed to the extended period
           allowed for completion.

           The National Exercise Program Base Plan requires the development of a
           corrective action process to ensure that lessons learned from exercises are
           either continued or improved upon as appropriate. The base plan also requires
           all departments and agencies to maintain a corrective action program that can
           generate data for, and track assignments from, the CAP system. At FEMA,
           immediately following exercises, NED and other exercise participants are to
           develop After-Action Reports that summarize exercise events, analyze
           performance, and evaluate achievement of objectives. Improvement Plans are
           also to be developed and should include corrective actions, timelines for
           implementing them, and the agencies responsible for their completion.
           Improvement Plans are entered into the CAP system, where FEMA’s National
           Preparedness Assessment Division is to ensure that they are tracked until
           completion.

           The EEP Steering Committee, which was established in January 2009 through
           Management Directive 123-15, did not meet to coordinate exercise activities and
           make corrective action recommendations. The Steering Committee is responsible
           for managing and tracking FEMA’s corrective actions within CAP, RAMP, and LLIS.
           It is to include senior leadership from all FEMA directorates and offices involved
           in disaster exercises, and be chaired by the National Integration Center. When
           Management Directive 123-15 was issued, NED was part of the National
           Integration Center, which is no longer the case. However, the directive was not
           updated, and there was not a clear understanding of which office was responsible
           for chairing the committee. According to our interviews, no one in FEMA called
           a meeting in several months. The lack of oversight by the EEP Steering
           Committee made managing and tracking corrective actions more difficult and
           completing them less of a priority. If the committee met regularly, it would be
           better able to recommend which offices should resolve issues related to
           corrective actions and prioritize completion of these actions.

           Fewer than 40 percent of the corrective actions identified from the Top Officials
           (TOPOFF) 4 exercise in 2007 and the NLE 2009 had been completed as of
           October 25, 2011. At the time of our review, 57 percent of corrective actions to


www.oig.dhs.gov                                 5                                      OIG-12-118
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           be completed by DHS (including FEMA) from these two exercises had not met
           their targeted completion dates. FEMA was not primarily responsible for
           completing all corrective actions included in the Improvement Plans from these
           exercises, but many for which the agency was responsible were not completed.
           For example, of the 11 FEMA-specific corrective actions from the 2007 TOPOFF 4
           exercise, 8 were open and overdue. These corrective actions were to be
           completed by January 2011—more than 3 years after the exercise. One of the
           TOPOFF 4 actions yet to be completed by FEMA states that more government-
           wide planning is needed to develop a process to determine where to send
           resources and supplies in case there are multiple disaster sites. FEMA is also
           responsible for two corrective actions from the NLE 2009, both of which were to
           be completed in May 2011 and are now overdue. One of these corrective
           actions states that pre-exercise seminars are needed to discuss the roles and
           responsibilities of executive branch organizations dealing with crisis situations to
           improve the decisionmaking process. According to FEMA, the time allotted to
           complete the FEMA-specific corrective actions is determined by each designated
           office and depends on the complexity of the improvement plan; there is no
           centralized office that determines the timeframe for completing corrective
           actions.

           Validating Corrective Actions

           FEMA did not consistently and adequately validate all completed corrective
           actions for which it was responsible. Validation was hampered by the need for
           finalized guidance for the corrective action process.

           Guidance for the Homeland Security Exercise and Evaluation Program includes
           an improvement planning process to identify and resolve corrective actions from
           After-Action Reports. Furthermore, according to the guidance, once resolved
           and completed, corrective actions should be implemented, tested, and validated
           by incorporating them into subsequent exercises or responses to actual events.
           Once a corrective action has been completed and validated, it becomes a lesson
           learned, which should be disseminated throughout FEMA. (See figure 2.)




www.oig.dhs.gov                                 6                                       OIG-12-118
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Figure 2. RAMP/CAP Work Flow 





   Source: FEMA.

           The draft FEMAfRAMP/CAPfManual,fdated September 2011, provides guidance
           to standardize and develop a process to evaluate operational performance in
           actual and simulated events, track agency-wide corrective actions, and, with
           FEMA’s partners, address lessons learned. According to the draft manual, a
           completed corrective action is considered to be validated when it improves
           mission performance. Validation confirms that improvements are being put into
           practice, which is critical to FEMA’s ability to learn and innovate. However,
           FEMA personnel who design internal training exercises said that they had not
           received any requests to validate corrective actions during future exercises.
           Because the RAMP/CAPfManual has not been finalized, FEMA offices and
           divisions do not have updated, official guidance and are unaware of roles and
           responsibilities in the corrective action process. This need for of guidance has
           hindered validation of corrective actions.

           Managing Lessons Learned

           FEMA did not sufficiently disseminate information on agency-specific lessons
           learned. Without a final RAMP/CAPfManual, FEMA needs a standardized
           process for managing and sharing lessons learned. In January 2011, OIG
           reported in FEMA’sfImplementationfoffthefRemedialfActionfManagementf
           Programf(OIG-11-32) that FEMA had discontinued its use of the RAMP, and, in
           the process, lost the ability to read historical data on lessons learned. Since
           then, FEMA has located some reports and posted them to LLIS, but all the posted
           reports were from December 2009 and earlier. There are no reports from the



www.oig.dhs.gov                                7                                     OIG-12-118
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


           past 2 years in LLIS. For these reasons, lessons learned were not consistently
           disseminated throughout the agency. As a result, FEMA was missing
           opportunities to learn from the experiences of its personnel and improve its
           disaster management operations.

           Once corrective actions have been completed and validated, they become
           lessons learned, which should then be disseminated throughout FEMA. The
           National Preparedness Assessment Division of NPD is responsible for ensuring
           that FEMA-specific observations and lessons learned from all training, exercises,
           and actual events are promptly submitted to LLIS. Prompt submission to LLIS
           ensures that lessons learned are widely and easily accessible to FEMA personnel
           and eliminates the need for multiple searches to find reports and documents.
           However, 9 of the 10 FEMA regions posted a combined total of only 10 lessons
           learned to the FEMA channel within LLIS, while Region VII posted 47. Every
           exercise and actual disaster can potentially generate multiple lessons learned.
           For example, seven lessons learned were generated from the NLE 2011 alone,
           and once the corrective actions from the exercise have been completed and
           validated, they too will become lessons learned. Given this, we would expect to
           see more than 57 lessons learned posted in LLIS.

           Conclusion

           FEMA did not provide proper oversight or clear guidance to track and manage its
           corrective actions or prioritize their completion, nor did it sufficiently disseminate
           its agency-specific lessons learned from exercises and disasters. Convening
           regular meetings of the EEP Steering Committee would help to better track and
           manage corrective actions and ensure that their completion was made a priority
           and done in a timely manner. Moreover, if FEMA finalized and implemented the
           RAMP/CAPfManual, the agency could more effectively track and manage, and
           thus, complete and validate corrective actions as well as better disseminate
           lessons learned. By not completing and validating corrective actions and not
           disseminating all its agency-specific lessons learned, FEMA missed opportunities
           to gain knowledge from the experiences of its personnel and improve its disaster
           management operations. Unless FEMA takes steps to resolve issues that arise
           from exercises and disasters and improve its processes, its disaster management
           operations may be adversely affected.




www.oig.dhs.gov                                  8                                        OIG-12-118
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Recommendations

           We recommend that the Deputy Administrator, National Preparedness
           Directorate:

           Recommendation #1:

           Revise Federal Emergency Management Agency Exercise and Evaluation Program
           Management Directive 123-15 to reflect the current organizational structure and
           ensure that the Exercise and Evaluation Program Steering Committee meets
           regularly.

           Recommendation #2:

           Finalize, issue, and implement a RemedialfActionfManagementf
           Program/CorrectivefActionfProgramfManual that standardizes the corrective
           actions and lessons learned processes and provides a clear delineation of all
           participants’ roles and responsibilities.

           Recommendation #3:

           Validate completed corrective actions through exercises or actual events and,
           once validated, submit them in a timely manner to the Lessons Learned
           Information Sharing website.

           Management Comments and OIG Analysis

           We obtained and reviewed written comments on the draft report from the
           Director of FEMA’s Office of Policy and Program Analysis. Where appropriate,
           we made changes to the report. FEMA concurred with all three
           recommendations. Appendix B includes a copy of the management comments in
           their entirety. Our evaluation of FEMA’s response to the draft report follows.

           Management Response to Recommendation #1

           FEMA concurs with this recommendation. FEMA acknowledges that the
           Management Directive needs to be revised and will determine an appropriate
           steering committee organization to provide internal FEMA oversight of
           corrective actions and lessons learned and update all associated directives as
           appropriate. FEMA points out that the EEP Steering Committee is not expected
           to be the solution for corrective action tracking and that it addresses internal
           FEMA issues, but not interagency issues.


www.oig.dhs.gov                                9                                      OIG-12-118
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security



           OIG Analysis

           We consider this recommendation resolved because steps are being taken to
           implement it. However, it will remain open until FEMA revises the Management
           Directive and ensures that the Exercise and Evaluation Program Steering
           Committee meets regularly.

           Management Response to Recommendation #2

           FEMA concurs with this recommendation and is developing new doctrine/policy
           that should be completed by August 2012.

           OIG Analysis

           We consider this recommendation resolved because steps are being taken to
           implement it. However, it will remain open until the new doctrine/policy that
           standardizes the corrective actions and lessons learned processes is finalized.

           Management Response to Recommendation #3

           FEMA concurs with this recommendation. Validation of completed corrective
           actions and timely sharing of lessons learned will be addressed in the new
           doctrine/policy in development, which should be completed by August 2012.

           OIG Analysis

           We consider this recommendation resolved because steps are being taken to
           implement it. However, it will remain open until the new doctrine/policy is
           finalized.




www.oig.dhs.gov                                10                                     OIG-12-118
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the HomelandfSecurityfActfoff2002 (Public Law 107-296) by amendment
   to the InspectorfGeneralfActfoff1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   The objective of our review was to determine whether FEMA is managing and tracking
   corrective actions and lessons learned identified during the National-Level Exercises, as
   well as other exercises and disasters. The scope of our review included exercises from
   October 2007 (TOPOFF 4) to May 2011 (NLE 2011).

   To accomplish our objective, we reviewed and analyzed the HomelandfSecurityfActfoff
   2002 (Public Law 107-296), as amended,fand the Post-KatrinafEmergencyfManagementf
   ReformfActfoff2006 (Public Law 109-295), as amended, prior DHS OIG and Government
   Accountability Office reports relevant to our review, and documents provided by FEMA,
   as well as other applicable documents.

   We interviewed officials from DHS and FEMA. We conducted these interviews by phone
   and in person at FEMA headquarters in Washington, DC. We observed the functional
   component of NLE 2011 in Washington, DC, and Herndon, VA. We attended both the
   After-Action Conference and the Lessons Learned Conference for NLE 2011.

   We conducted this review under the authority of the InspectorfGeneralfActfoff1978, as
   amended, and according to the Quality Standards for Inspections issued by the Council
   of the Inspectors General on Integrity and Efficiency.




www.oig.dhs.gov                                11                                     OIG-12-118
                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security


   Appendix B
   Management Comments to the Draft Report
                                                                                      U. S. Drl1:1 l1me nt c f IIom el:tntl Securi ty
                                                                                      \Va:;ltington. DC 20<112




                                                    JUL 1 1 ZOlZ

              MEMORAND UM FOR:              Anne L. Richards
                                            Assistant Inspector General for Audits
                                            Office of the Inspector Genera l

              FROM:                         Da""idJ. Kaufman      ~ ~
                                            Di rector           ~
                                            Office of Pol icy and Program Analysis

              SUBJECT:                      FEMA' s Management o f Corrective Actions and Lessons Learned
                                            From National Level Exercises - For Official Use Only
                                            (OIG ProjecliVo. 11 -139-EMO-FEMA)


              Thank you for the opportunity to review and comment on the draft report : FEM1 's Management of
              Corrective Acrions and Lessons Lcal'l1cdjrom National Lewd Exercises For Ufficial Usc Unly.
              Thi s memo addresses our responses to specific finding s and recommendations in the report.

              In general, the draft repolt accurate ly attributes SCVCIaJ deficiencies ill the FEMA and interagency
              corrective action processes to programs managed by FEMA. specificall y the National Exercise
              Program (NEP) and the Lessons Learned Program. Some of the discussion and findings require
              clarification to avoid possible misinterpretation of FEM A's authorities and responsibilities. FEMA
              does not have the authority to force the implementation o r corrective actions identified by or
              assigned to other Federal departments and agencies. In addition, ne ither existing exercise guidance
              nor the anticipated Lcssons Learned and Continuous Improvcment Program (LL/CIP) assign
              validation responsibility to FEMA 's National Preparedness Assessment Division (NPAD) or
              National Exercise Di vis ion (NED). Each issue identified during a National Level Exercise (N LE)
              that requires resolution is assigned to a depanment, agency. or directorate \,vith the appropriate
              expeltise to develop. complete. and validate the correct ive action.

              Ove rall Comments

              FEMA notes that the 0 10 included discussion on three results of the review. FEMA has several
              comments, provided below:

                  •   Tracking, Managing, and Completing Corrective Actions
                         o The report states "A lack of oversight by the EEP Steering Committee made it morc
                            difficult to manage, track, and prioritize completion o f corrective actions." The
                            FEMA Exercise and Evaluation Pl'Ogralll Steering Committee was l:!'jtablished as an
                            internal FEMA coordi nating body with no responsibility or authority outside FEMA
                            and cannot "coordi nate recommendations for all Federal agencies corrective actions. "




www.oig.dhs.gov                                              12                                                                         OIG-12-118
                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security




                         o The last sentence of this finding states "It is possible that the extensive amount of
                           time FEMA allows to complete corrective actions resulted in a diminished sense of
                           urgency to complete them." The time allotted is determined by the responsible
                           department or agency and depends on the complexity of the improvement plan.
                         o Update on corrective action completion rate: 97% ofDHS issues and 91% ofFEMA
                           issues from TOPOFF 4 are complete. 100% ofDHS and FEMA issues from NLE 08
                           are complete. 95% ofDHS and 100% ofFEMA issues from NLE 09 are complete.

                  •   Validating Corredive Attions
                         o The report states "Guidance for the Homeland Security Exercise and Evaluation
                             Program includes an improvement planning process to identifY and resolve corrective
                            actions from After-Action Report.;;. Furthennore, according to the guidance, once
                             resolved and completed, corrective actions should be implemented, tested. and
                             validated by incorporating them into subsequent exercises or responses to actual
                            events. Once a corrective action has been completed and validated. it becomes a
                             lesson learned, which should be disseminated throughout FEMA." FEMA
                             acknowledges that more sped fie direction is required for validating completed
                             corrective actions and will provide this direction in its LUCIP documentation and
                             revised HSEEP documentation.
                         o Each issue identified during an NLE is assigned to a department, agency. or
                             directorate with the appropriate expertise to develop the corrective action and submit
                             to the CAP. It is each department's, agency's, or directorate's responsibility to
                             validate the completed corrective action. Under the NEP, NPAD reports the
                             completion and validation of the FEMA and interagency corrective actions that are
                             submitted to, maintained, and updated in CAP. NLE participants can nominate
                             appropriate exercise objectives to facilitate the validation of completed corrective
                             actions. Hovvever, corrective actions also can be validated through real-world events.

                  •   Managing Lessons Learned
                          o The following statement is misleading: nWithout a final RAMP/CAP Manual) FEMA
                            lacks a standardized process for sharing lessons learned." The existing FEMA
                            manual describes a process for sharing lessons learned within FEMA based on the
                            defunct RAMP software ~- and is being updated. FEMA shares lessons learned with
                            external partners via LLISgov. LLlS.gov has served as the national lessons learned
                            management system since 2004. After-Action ReportslImprovement Plans (AARfIPs)
                            and other lessons learned information are disseminated through LLISgov.
                            Participation is voluntary. FEMA recognizes the current limitations of UIS.gov and
                            the lessons learned program and is currently working to improve the LLIS,gov user
                            interface and update the methodology to enhance participation and infonnation
                            sharing to meet both FEMA internal and national requirements.
                          o The report states "The National Preparedness Assessment Division ofNPD is
                            responsible for ensuring that observations and lessons learned from all training,
                            exercises, and actual events are promptly submitted to LLIS." NP AD manages the
                            lessons learned program and LLlS.gov system, ensuring that LLISgov is available to
                            those that have a need to access, that the configuration of LLlS.gol' supports the
                            stakeholders, and that infonnation provided by stakeholders is displayed
                            appropriately. The decision to submit any documents to LllS.gov remains with the
                            individual, department, agency, or other organization that originated the document.
                                                                  2




www.oig.dhs.gov                                              13                                                       OIG-12-118
                                   OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security




                          NPAD posts lessons learned, practice notes, WId best practices gathered through its
                          own research and other open-source infonnation.
                        o The data point that 9 out of 10 Regions submitted a total of 10 lessons learned, and
                          that the 10th Region submitted 47 lessons learned, indicates the importance of culture
                          on the development and sharing of lessons leamed, and how the cultural difference
                          among FEMA components affects the number of respective lessons learned shared.
                        o FE:MA lost the ability to read some, not all, historical data when RAMP was
                          discontinued. FEMA was able to recover 86% of the data, including 99% of the
                          lessons leamed data that was part of the defunct RAMP, and post related reports to
                          LLlS.gov.

              Response to Recommendations

              DIG Recommendation #1: Revise Federal Emergency Management Agency Exen..;se and
              Evaluation Program Management Directive 123-15 to reflect the current organizational structure and
              ensure that the Exercise and Evaluation Program Steering Committee meets regularly..

                     FEMA Response to Reeommendation #1: FEMA concurs with this recommendation.
                     FEMA acknowledges that the Management Directive needs to be revised. However, the
                     Exercise and Evaluation Program Steering Committee is not expected to be the solution for
                     corrective action tracking. Also, the Committee addresses internal FEMA issues, not
                     interagency issues. Moreover, FEMA will determine appropriate steering committee
                     organization to provide internal FEMA oversight of corrective actions and lessons learned
                     and update all associated Directives as appropriate.

              DIG Recommendation #2: Finalize, issue. and implement a Remedial Action Management
              Program/Corrective Action Program (RAMP/CAP) Manual that standardizes the corrective actions
              and lessons learned processes and provides a clear delineation of all participants' roles and
              responsibilities.

                     FEMA Response to Re(;ommendatioD #2: FEMA concurs with this recommendation.
                     FEMA requests discretion to determine the optimal content and format of the document, e.g.,
                     broad lessons Jearned and corrective action doctrine versus a RAMP/CAP manual. This new
                     doctrine/policy is in development, and should be completed by August 2012.

              OIG Recommendation #3: Ensure that completed corrective actions are validated tluough exercises
              or actual events and, once validated, are submitted in a timely manner to the Lessons Learned
              Infonnation Sharing website.

                     FEMA Response to Recommendation #3: FEMA concurs with this recommendation.
                     Validation of completed corrective actions and timely sharing of lessons learned will be
                     addressed in the new doctrine/policy in development, and should be completed by August
                     2012.

              Once again, thank you for the opportunity to comment on the findings and recommendations of the
              DIG Draft Report on FEMA 's Management ofCorreclive Actions and Lessons Learned From
              National Level Exercises prior to its publication.

                                                                3




www.oig.dhs.gov                                            14                                                      OIG-12-118
                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security




              We look forward to working with you on future homeland security emergency management
              engagements to improve FEMA programs and initiatives. Please feel free to provide any
              comments/concerns to Ms. Gina Norton of our GAO/OIG Audit Liaison Office~ 202-646 4287.
                                                                                               M




                                                           4




www.oig.dhs.gov                                         15                                              OIG-12-118
                           OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


   Appendix C
   Major Contributors to This Report
   Amy Hall, Director
   Modupe Akinsika, Audit Manager
   Eric Hostelley, Program Analyst
   S. Ryan Hartong, Program Analyst
   Erica Stern, Program Analyst
   Kelly E. Herberger, Communications Analyst
   Ralleisha Dean, Referencer




www.oig.dhs.gov                             16                  OIG-12-118
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix D
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs

   Federal Emergency Management Agency

   Administrator
   Assistant Administrator
   FEMA GAO/OIG Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                  17                        OIG-12-118
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
